UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-1674
Krystal Megan Delima
Plaintiff - Appellant
v.
Walmart Stores Arkansas, LLC
Defendant - Appellee
Appeal from U.S. District Court for the Western District of Arkansas - Fayetteville
(5:17-cv-05244-TLB)
JUDGMENT
Before SHEPHERD, STRAS, and KOBES, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
February 06,2020

fippeNOiY-A
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans

Appellate Case: 19-1674

Page: 1

Date Filed: 02/06/2020 Entry ID: 4878557

—'‘1

Unite* States Court of Appeals
jfor tl)t €ts()tl) Circuit
No. 19-1674

Krystal Megan Delima
Plaintiff - Appellant
v.
Walmart Stores Arkansas, LLC
Defendant - Appellee

Appeal from United States District Court
for the Western District of Arkansas - Fayetteville

Submitted: February 3, 2020
Filed: February 6, 2020
[Unpublished]

Before SHEPHERD, STRAS, and KOBES, Circuit Judges.

PER CURIAM.
Krystal Delima appeals after the jury returned an adverse verdict in her pro se
civil action and the district court1 denied her motion for a new trial. After careful
'The Honorable Timothy L. Brooks, United States District Judge for the
Western District of Arkansas.

/Xpp&hiDIX

Appellate Case: 19-1674

Page: 1

Date Filed: 02/06/2020 Entry ID: 4878548

I

•'7

review of the record and consideration of the issues properly before us, we find no
basis for reversal.2 We conclude that there is no merit to Delima’s arguments
challenging the district court’s rulings concerning a surveillance video tape produced
during pretrial discovery, see Sheets v. Butera, 389 F.3d 772, 780 (8th Cir. 2004)
(rulings on discovery matters are reviewed for gross abuse of discretion), the
admissibility of an exhibit at trial see Cavataio v. City of Bella Villa, 570 F.3d 1015,
1020 (8th Cir. 2009) (district court has broad discretion in its evidentiary rulings at
trial), and the jury instructions, see Otting-v . J.C. Penney Co., 223 F.3d 704,712-13
(8th Cir.2000) (refusal to submit jury instruction is reviewed for abuse of discretion).
Accordingly, we affirm. See 8th Cir. R. 47B.

2We conclude the district court’s ruling on Delima’s motion for a new trial is
not properly before us because she did not file a new or amended notice of appeal
after the district court denied that motion. See Miles v. GMC, 262 F.3d 720,722-23
(8th Cir. 2001). We also decline to consider the arguments she raised for the first
time on appeal. See Mau v. Twin City Fire Ins. Co., 910 F.3d. 388, 391 (8th Cir.
2018).
-2-

Appellate Case: 19-1674

Page: 2

Date Filed: 02/06/2020 Entry ID: 4878548

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1674
Krystal Megan Delima
Appellant
v.
Walmart Stores Arkansas, LLC
Appellee

Appeal from U.S. District Court for the Western District of Arkansas - Fayetteville
(5:17-cv-05244-TLB)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Kelly did not participate in the consideration or decision of this matter.
March 13, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-1674

Page: 1

Date Filed: 03/13/2020 Entry ID: 4891035

9/14/2020

19-1674 Docket
General Docket
Eighth Circuit Court of Appeals

Court of Appeals Docket #: 19-1674
Nature of Suit: 4360 Other Personal Injury
Krystal Delima v. Walmart Stores Arkansas, LLC
Appeal From: U.S. District Court for the Western District of Arkansas - Fayetteville
Fee Status: paid - cs

Docketed: 03/29/2019
Termed: 02/06/2020

Case Type Information:
1) Civil
2) Private
3) null
Originating Court Information:
District: 0861-5: 5:17-cv-05244-TLB
Court Reporter: Dana Hayden
Trial Judge: Timothy L. Brooks, U.S. District Judge
Date Filed: 11/27/2017
Date Order/Judgment:
Date NOA Filed:
02/22/2019
03/25/2019

Date Rec'd COA:
03/27/2019

Prior Cases:
None
Current Cases:
None

Krystal Megan Delima
Plaintiff-Appellant

Krystal Megan Delima
Direct: 479-238-3566
[NTC Pro Se]
54985 Country Road 586
Kansas, OK 74347

v.
Walmart Stores Arkansas, LLC
Defendant - Appellee

Bryce G. Crawford
Direct: 479-464-5650
[NTC Retained]
MITCHELL & WILLIAMS
Suite 200
4206 S. J.B. Hunt Drive
Rogers, AR 72758
Karen P. Freeman
Direct: 479-464-5682
[NTC Retained]
MITCHELL & WILLIAMS
Suite 200
4206 S. J.B. Hunt Drive
Rogers, AR 72758
Jacob McElroy
Direct: 479-464-5658
[NTC Retained]
MITCHELL & WILLIAMS
Suite 200
4206 S. J.B. Hunt Drive
Rogers, AR 72758

kfpBfJDix-k3
https://ecf.ca8.uscourts.gov/n/beam/servlet/TransportRoom

1/6

9/14/2020

19-1674 Docket

Krystal Megan Delima
Plaintiff - Appellant
v.
Walmart Stores Arkansas, LLC
Defendant - Appellee

https://ecf.ca8.usc0urts.g0v/n/beam/servlet/Transp0rtR00m

2/6

9/14/2020
03/29/2019

19-1674 Docket
Q (gj
4 pg, 104.26 KB

03/29/2019
04/03/2019

Q jg]
Originating court document filed consisting of notice of appeal, docket entries, order 02/22/2019, judgment
20 pg, 777.32 kb dated 02/22/2019. [4774991] [19-1674] (RLS) [Entered: 04/08/2019 10:50 AM]
Q @§
1 pg, 63.55 KB

04/03/2019

Q [g]
1 pg, 58.85 KB

04/10/2019
04/10/2019

Civil case docketed. [4772405] [19-1674]-{Edited 04/08/2019 by RLS] (RLS) [Entered: 03/29/2019 04:31
PM]

APPEARANCE filed by Karen P. Freeman for Appellee Walmart Stores Arkansas, LLC w/service
04/03/2019 [4773859] [19-1674] (KPF) [Entered: 04/03/2019 03:39 PM]
APPEARANCE filed by Bryce G. Crawford for Appellee Walmart Stores Arkansas, LLC w/service
04/03/2019 [4773864] [19-1674] (BGC) [Entered: 04/03/2019 03:44 PM]

Q [II]
Originating court document filed consisting of originating court order of 04/10/2019, [4776207] [19-1674]
13 pg, 894.64 kb (RLS) [Entered: 04/10/2019 11:59 AM]
□ [§]
1 pg, 11.57 KB

BRIEFING SCHEDULE SET AS FOLLOWS: If the original file of the U.S. District Court is available for
review in electronic format, the court will rely on the electronic version of the record in its review. The
appendices required by 8th Circuit Rule 30A shall not be required. In accordance with 8th Circuit Local
Rule 30A (a)(2), the clerk of the United States District Court is requested to forward to this Court forthwith
any portions of the original record which are not available in an electronic format or filed under seal,
exhibits, administrative records and state court files.
Transcript due on or before 05/20/2019. Appendix due 05/30/2019. BRIEF APPELLANT, Krystal Megan
Delima due 05/30/2019
Appellee brief is due 30 days from the date the court issues the Notice of Docket Activity filing the brief of
appellant.
Appellant reply brief is due 21 days from the date the court issues the Notice of Docket Activity filing the
appellee brief. [4776210] [19-1674] (RLS) [Entered: 04/10/2019 12:02 PM]

05/01/2019

□

RECORD FILED - TESTIMONY TRANS, 1 volumes, Location STL, Comments: Testimony of Christopher
Milam held on 02/21/2019 - District Court document #143 [Copy do not return to the District Court at end of
case], Source Location: USDC / WAF
[4783494] [19-1674]—[Edited 05/01/2019 by STL] (STL) [Entered: 05/01/2019 02:49 PM]

05/02/2019

0

RECORD FILED - TESTIMONY TRANS, 1 volumes, Location STL, Comments: Excerpt - Testimony of
Zenith Thompson held on 02/20/2019 - District Court document #144 [Copy do not return to the District
Court at end of case], Source Location: USDC / WAF
[4783652] [19-1674] (STL) [Entered: 05/02/2019 08:13 AM]

05/02/2019

0

RECORD FILED - TESTIMONY TRANS, 1 volumes, Location STL, Comments: Excerpt - Testimony of
Timothy Filbeck held on 02/21/2019 - District Court document #145 [Copy do not return to the District Court
at end of case], Source Location: USDC / WAF
[4783657] [19-1674] (STL) [Entered: 05/02/2019 08:20 AM]

05/02/2019

0

RECORD FILED - TESTIMONY TRANS, 1 volumes, Location STL, Comments: Excerpt - Testimony of
Krystal Megan Delima held on 02/21/2019 - District Court document #146 [Copy do not return to the
District Court at end of case], Source Location: USDC / WAF
[4783660] [19-1674] (STL) [Entered: 05/02/2019 08:24 AM]

05/02/2019

Q

RECORD FILED - TESTIMONY TRANS, 1 volumes, Location STL, Comments: Amended Reporter's
Record - Excerpt of Testimony of Zenith Thompson held on 02/20/2019 - District Court document #157
[Copy do not return to the District Court at end of case], Source Location: USDC / WAF
[4783663] [19-1674] (STL) [Entered: 05/02/2019 08:31 AM]

Q @
3 pg, 14.17 KB

DESIGNATION of record filed by Appellee Walmart Stores Arkansas, LLC. w/service 05/08/2019 [4785727]
[19-1674] (KPF) [Entered: 05/08/2019 04:24 PM]

Q @
2 pg, 100.38 kb

CLERK LETTER sent regarding new caption in case. [4789615] [19-1674] (EDG) [Entered: 05/21/2019
10:02 AM]

Q g

MOTION for extension of time to file brief until 06/10/2019, filed by Appellant Ms. Krystal Megan Delima
w/service by USCA-8 nda on 05/30/2019. [4792317] [19-1674] (JMM) [Entered: 05/30/2019 07:40 AM]

05/08/2019
05/21/2019
05/29/2019

2 pg, 43.93 KB

05/30/2019

05/31/2019

0

CLERK ORDER: 14792317-21 Granting motion for extension of time to file brief filed by Appellant Ms.
Krystal Megan Delima. Brief of Krystal Megan Delima due 06/10/2019. Appendix due on 06/10/2019.
[4792318] [19-1674]
** THIS ORDER HAS BEEN CORRECTED ON 06/04/2019 - BY REMOVING THE APPENDIX DEADLINE
AS ONE IS NOT REQUIRED IN A PRO SE CASE. -[Edited 06/04/2019 by JMM] (JMM) [Entered:
05/30/2019 07:42 AM]

Q [I]

DOCUMENT FILED - APPELLANTS RESPONSE TO APPELLEE DESIGNATION OF RECORD FOR
APPEAL, with exhibits attached filed by Ms. Krystal Megan Delima. w/service 05/31/2019 [4793060] [191674] (JMM) [Entered: 05/31/2019 12:28 PM]

66 pg, 3.82 MB

06/04/2019

Q [S]

CLERK ORDER: We are correcting our previous order dated 05/30/2019 which was clerk order ,[4792318-

https://ecf.ca8. uscourts.gov/n/beam/servlet/TransportRoom

3/6

9/14/2020

19-1674 Docket
1 pg, 9.1 KB

2] The correction made was: removing appenidix due deadline - appendices are not required in a pro se
case. Appellant's brief deadline is still set for June 10. 2019.14793655] [4793655] [19-1674] (JMM)
[Entered: 06/04/2019 07:38 AM]

06/10/2019 Q g

APPELLANT brief of Ms. Krystal Megan Delima submitted for review. The time for filing the subsequent
48 pg, 465.78 kb brief (if any) does not begin to run until the brief has been approved and filed. To open/view this brief, you
must first login to CM/ECF and then open the document link in your Notice of Docket Activity. Only direct
recipients on accounts can open this document. [4796068] [19-1674] (KMD) [Entered: 06/10/2019 10:23
PM]

06/10/2019 Q g
52 pg, 19.28 mb

APPELLANT brief of Ms. Krystal Megan Delima submitted for review. The time for filing the subsequent
brief (if any) does not begin to run until the brief has been approved and filed. To open/view this brief, you
must first login to CM/ECF and then open the document link in your Notice of Docket Activity. Only direct
recipients on accounts can open this document. [4796069] [19-1674]** NOTE - PER MEG ATTACHMENT
WAS PRINTED AND FILED AS EXHIBITS-[Edited 06/12/2019 by JMM] (KMD) [Entered: 06/10/2019 10:33
PM]

06/10/2019

Q g
1 pg 198 31 kb

06/12/2019

Q g
BRIEF FILED - APPELLANT BRIEF filed by Ms. Krystal Megan Delima. w/service 06/12/2019, Length:
49 pg 44317 kb 9.761 words , 5 copies made by USCA-8.
Brief of Walmart Stores Arkansas, LLC due on 07/12/2019 [4796600] [19-1674] (JMM) [Entered:
06/12/2019 07:39 AM]

06/12/2019

Q (S]
3 pg, 235.25 kb

06/12/2019 Q 0
1 pg, 9.03 KB

Addendum of APPELLANT submitted for review by Ms. Krystal Megan Delima. To open/view this
addendum, you must first login to CM/ECF and then open the document link in your Notice of Docket
Activity. [4796070] [19-1674] (KMD) [Entered: 06/10/2019 10:38 PM]

ADDENDUM of APPELLANT FILED by Appellant Ms. Krystal Megan Delima , w/service 06/12/2019
[4796601] [19-1674] (JMM) [Entered: 06/12/2019 07:41 AM]
RECORD FILED - EXHIBITS, Comments: 1 copy, Source Location: St. Louis
[4796602] [19-1674] (JMM) [Entered: 06/12/2019 07:43 AM]

06/13/2019 □

RECORD FILED - EXHIBITS, Location STL, Comments: 1 mailing tube containing 2 Exhibits labeled Joint
Exhibit #5-A and Joint Exhibit #5-B [Received from Kyrstal Megan Delima - Appellant - return at end of
case], Source Location: Krystal Megan Delima / Appellant
[4797314] [19-1674] (STL) [Entered: 06/13/2019 11:33 AM]

06/13/2019 0

RECORD FILED - EXHIBITS, Location STL, Comments: 1 envelope containing 1 DVD - marked Video
Copy [Received from Krystal Megan Delima - Appellant - return at end of case], Source Location: Krystal
Delima / Appellant
[4797327] [19-1674] (STL) [Entered: 06/13/2019 11:39 AM]

06/28/2019 0

RECORD FILED - TRIAL TRANSCRIPT, 4 volumes, Location STL, Comments: 3 Volumes of Trial and 1
volume of Master Index [Copies do not return to the District Court at end of case], Source Location: USDC
/WAF, Dt. of Proceeding/Hearing: 02/20/2019 - 02/22/2019, Court Reporter: Hayden, Dana
[4802841] [19-1674] (STL) [Entered: 06/28/2019 08:20 AM]

07/03/2019 Q ||

MOTION for extension of time to file brief until 08/12/2019, filed by Appellee Walmart Stores Arkansas,
LLC w/service 07/03/2019. [4804717] [19-1674] (BGC) [Entered: 07/03/2019 01:28 PM]

4 pg, 16.55 KB

07/03/2019 0

On December 1, 2016, the Federal Rules of Appellate Procedure were amended to require a certificate of
compliance for motions/petitions filed under the following [Rule 27/Rule 5/Rule 21 /Rule 35/Rule 40],
certifying that the document complies with the type-volume limitations and stating the number of words in
the document. Your recently filed motion did not contain this certificate of compliance.
No action will be taken on your motion for extension of time to file brief, f4804717-2l. submitted by
Walmart Stores Arkansas, LLC in 19-1674, pending the filing of a certificate of compliance using
the ’Certificate of Compliance' event. Please do not refile your motion [19-1674] (YML) [Entered:
07/03/2019 02:25 PM]

07/03/2019 Q g

CERTIFICATE OF COMPLIANCE filed by Ms. Karen P Freeman for Appellee Walmart Stores Arkansas,
LLC and Mr. Bryce G. Crawford for Appellee Walmart Stores Arkansas, LLC correcting r4804717-21 motion
filed by Appellee. [4804901] [19-1674] (BGC) [Entered: 07/03/2019 04:16 PM]

3 pg, 13.96 KB

07/03/2019 Q g
1 pg, 8.78 KB

08/12/2019 Q g
33 pg, 11*3.43 KB

08/12/2019 Q g
1 pg, 95.09 KB

CLERK ORDER:Granting f4804717-2l motion for extension of time to file brief filed by Appellee Walmart
Stores Arkansas, LLC. Brief of Walmart Stores Arkansas, LLC due 08/12/2019. [4804933] [19-1674] (YML)
[Entered: 07/03/2019 05:12 PM]
APPELLEE brief of Walmart Stores Arkansas, LLC submitted for review. The time for filing the subsequent
brief (if any) does not begin to run until the brief has been approved and filed. To open/view this brief, you
must first login to CM/ECF and then open the document link in your Notice of Docket Activity. Only direct
recipients on accounts can open this document. [4818145] [19-1674] (BGC) [Entered: 08/12/2019 02:35
PM]
Brief deficiency notice sent to counsel, Mr. Bryce G. Crawford for Appellee Walmart Stores Arkansas, LLC
and Ms. Karen P Freeman for Appellee Walmart Stores Arkansas, LLC. [4818158] [19-1674] (JMM)

https://ecf.ca8.uscourts.gov/n/beam/servlet/TransportRoom

4/6

9/14/2020

19-1674 Docket
[Entered: 08/12/2019 02:52 PM]

08/12/2019 Q [g

APPELLEE brief of Walmart Stores Arkansas, LLC submitted for review. The time for filing the subsequent
33 pg, 115.68 kb brief (if any) does not begin to run until the brief has been approved and filed. To open/view this brief, you
must first login to CM/ECF and then open the document link in your Notice of Docket Activity. Only direct
recipients on accounts can open this document. [4818199] [19-1674] (BGC) [Entered: 08/12/2019 03:22
PM]

08/12/2019 Q g

BRIEF FILED - APPELLEE BRIEF filed by Walmart Stores Arkansas, LLC,
34 pg, 145.05 kb Appellant's reply brief deadline will be set, based on the Certificate of Service in appellee's paper brief,
w/service 08/12/2019, Length: 24 pages
10 COPIES OF PAPER BRIEFS (WITHOUT THE APPELLATE PDF FOOTER) FROM Walmart Stores
Arkansas, LLC due 08/19/2019 WITH certificate of service for paper briefs [4818253] [19-1674] (JMM)
[Entered: 08/12/2019 03:52 PM]

08/13/2019 Q [¥|
1 pg, 53.2 KB

APPEARANCE filed by Jacob McElroy for Appellee Walmart Stores Arkansas, LLC w/service 08/13/2019
[4818789] [19-1674] (JM) [Entered: 08/13/2019 04:08 PM]

08/14/2019 □

PUBLIC DOCKET NOTE: Appellant's REPLY BRIEF DEADLINE is set September 3, 2019. [4818938] [191674] (JMM) [Entered: 08/14/2019 09:38 AM]

08/19/2019 Q

Paper copies Appellee/Respondent brief, [4818253-21 filed by Walmart Stores Arkansas, LLC 10 paper
copies received.
[4820421] [19-1674] (JMM) [Entered: 08/19/2019 10:35 AM]

09/06/2019 Q (g

APPELLANT brief of Ms. Krystal Megan Delima submitted for review. The time for filing the subsequent
29 pg, 326.74 kb brief (if any) does not begin to run until the brief has been approved and filed. To open/view this brief, you
must first login to CM/ECF and then open the document link in your Notice of Docket Activity. Only direct
recipients on accounts can open this document. [4827865] [19-1674] (KMD) [Entered: 09/06/2019 03:48
PM]

09/09/2019

Q [§
BRIEF FILED - APPELLANT REPLY BRIEF filed by Ms. Krystal Megan Delima. w/service 09/09/2019 ,
29 pg, 327.26 kb Length: 6,294 words, 4 copies made by USCA-8.
[4828013] [19-1674] (JMM) [Entered: 09/09/2019 08:43 AM]

02/03/2020

□

02/06/2020 Q [§
3 pg, 132.8 KB

02/06/2020 Q g
1 pg, 9.08 KB

CASE SUBMITTED Screening Case Submission before Judges Bobby E. Shepherd, David R. Stras,
Jonathan A. Kobes in St. Louis [4877644] [19-1674] (CRJ) [Entered: 02/04/2020 08:54 AM]
PER CURIAM OPINION FILED - THE COURT: Bobby E. Shepherd, David R. Stras and Jonathan A.
Kobes (UNPUBLISHED) [4878548] [19-1674] (CRJ) [Entered: 02/06/2020 08:23 AM]
JUDGMENT FILED - The judgment of the Originating Court is AFFIRMED in accordance with the opinion
BOBBY E. SHEPHERD, DAVID R. STRAS and JONATHAN A. KOBES Scrg Jan 2020 [4878557] [19-1674]
(CRJ) [Entered: 02/06/2020 08:29 AM]

02/21/2020 Q 0

PETITION for enbanc rehearing and also for rehearing by panel filed by Appellant Ms. Krystal Megan
16 pg, 308.82 kb Delima w/service 02/20/2020 [4883524] [19-1674] (KMD) [Entered: 02/21/2020 12:00 AM]

03/13/2020 Q g

03/20/2020

1 pg, 8.83 KB

JUDGE ORDER: Denying r4883524-21 petition for enbanc rehearing filed by Appellant Ms. Krystal Megan
Delima. The petition for panel rehearing is also denied. Judge Kelly did not participate in the consideration
or decision of this matter. [4891035] [19-1674] (MDS) [Entered: 03/13/2020 10:46 AM]

Q [||

MANDATE ISSUED. [4893561] [19-1674] (CMD) [Entered: 03/20/2020 07:34 AM]

1 pg, 8.81 KB

https://ecf.ca8.usco U rts.gov/n/beam/servlet/TransportRoom

5/6

9/14/2020

19-1674 Docket

Clear All
© Documents and Docket Summary
O Documents Only
G Include Page Numbers
Selected Size: 0 KB
Selected Pages: 0
Totals reflect accessible documents only and do not include unauthorized restricted documents.

View Selected

PACER Service Center
Transaction Receipt
8th Circuit Court of Appeals - 09/14/2020 15:14:04
PACER Login:

krysmeg586

Client Code:

5439064

Description:

Docket Report (filtered)

Search Criteria:

19-1674

Billable Pages:

4

Cost:

0.40

https://ecf.ca8.uscourts.g0v/n/beam/servlet/TransportRoom

6/6

• ^

A.'.

Case 5:17-cv-05244-TLB Document 139

Filed 02/22/19 Page 1 of 2 PagelD #: 1141

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
KRYSTAL MEGAN DELIMA
V.

PLAINTIFF
CASE NO. 5:17-CV-5244
DEFENDANT

WAL-MART STORES ARKANSAS, LLC
ORDER ON JURY VERDICT

On tiie 20th day of February, 2019, this matter came before the Court for trial to a
duly qualified and selected jury consisting of eight members. After three days of trial the
jury was instructed on applicable law and the case was submitted on interrogatories,
whereupon the jury retired to deliberate its verdict Thereafter, the jury returned to open
court and delivered the following verdict
INTERROGATORY NO. 1: Do you find by a preponderance of ttie evidence that
there was negligence on the part of Walmart which was a proximate cause of any
damages sustained by Ms. Delima?
Answer:

No
/s/ Jury Foreperson

*

February 22,2019

r

The parties waived polling of the jury.
The Court finding no irregularity and/or objections to the procedure or form of the
jury’s verdict, hereby accepts the same as true and proper in all respects.

■J

APp£NC?|X ' £>l

Wi'i
t

Case 5:17-cv-05244-TLB Document 139

Filed 02/22/19 Page 2 of 2 PagelD #: 1142

J
DATED this

day of February, 2019./

. BROOKS
DISTRICT JUDGE

1

Case 5:17-cv-05244-TLB Document 140

Filed 02/22/19 Page 1 of 1 PagelD #: 1143

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
PLAINTIFF

KRYSTAL MEGAN DELIMA
CASE NO. 5:17-CV-5244

V.

DEFENDANT

WAL-MART STORES ARKANSAS, LLC
JUDGMENT

Pursuant to the verdict returned by the jury on February 22, 2019 (Doc. 138) and
the Court’s Order thereupon (Doc. 139), the Court hereby finds and directs that the
Defendant, Wal-Mart Stores Arkansas, LLC, is entitled to a judgment in its favor and a
dismissal of Plaintiffs Complaint against it.
IT IS THEREFORE ORDERED AND AD JUDGED that judgment is rendered in favor
of the Defendant, and that Plaintiff’s claims against the Defendant are DISMISSED WITH
PREJUDICE.
IT IS SO ORDERED on this

MWL.BROOKS
ItTED STATES'OISTRICT JUDGE

Case 5:17-cv-05244-TLB Document 152

Filed 03/27/19 Page 1 of 3 PagelD #: 1516

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
PLAINTIFF

KRYSTAL MEGAN DELIMA
v.

CASE NO. 5:17-CV-5244
DEFENDANT

WAL-MART STORES ARKANSAS, LLC
OPINION AND ORDER

Currently before the Court are Plaintiff Krystal Megan Delima’s Motion for Order to
Correct Testimony (Doc. 148), and three separate Motions for Correction (Docs 149,150,
151) which detail the proposed corrections Ms. Delima seeks.
Ms. Delima’s motions explain that she ordered several transcripts of excerpts of
witness testimony from the jury trial held in February.1 After reviewing those transcripts,
Ms. Delima accuses the court reporter of numerous indiscretions, including “fabrication
of non-sensible words," and deletions and replacements with words that were out of
context with what Ms. Delima claims the testimony really was. See, e.g., Doc. 148, p. 1.
She additionally requests the audio back-up file of these transcripts.
The Court has reviewed the numerous alleged errors in the transcript excerpts and
finds that Ms. Delima’s allegations are almost entirely without merit. The vast majority of
Ms. Delima’s proposed changes are labeled “clarifications.” Ms. Delima claims that the
transcript is incorrect because it contains words that repeat, incomplete sentences,
incorrect verb tense, etc. What Ms. Delima fails to appreciate is that the court reporter’s
job is not to take what was said from the witness stand or the bench and convert it into

1 To be clear, Ms. Delima did not order the entire trial transcript. Instead, she ordered
excerpts, consisting of the testimony of four specific fact witnesses. See Docs. 143-146.
1

-BP-

Case 5:17-cv-05244-TLB Document 152

Filed 03/27/19 Page 2 of 3 PagelD #: 1517

the Queen’s English. Her job is to transcribe exactly what was said. Therefore, when a
witness, Judge, or attorney repeats phrases, interrupts prior thoughts to begin anew, or
uses incomplete sentences, that is what the transcript should (and in this case does)
reflect. Thus, Ms. Delima’s wishes that the transcript be updated to reflect the complete
thoughts of how she contends the witness intended to testify is misplaced.2 It is improper
to change a transcript after the trial to reflect testimony that was never given.
There are, however, two instances where a correction will be ordered.3 First, Ms.
Delima is correct that the index for the transcript of Zenith Thompson’s testimony
incorrectly lists the Court Reporter’s Certification as being on page 33. It really is on page
14. Second, the transcript of Ms. Delima’s narrative testimony includes the word “open”
when Ms. Delima contends that it should be “often.” After reviewing the audio, it is an
extremely close call about whether the word said was “open” or “often.” It appears that
the way Ms. Delima pronounced the word may have contributed to it being transcribed as
“open.” Nevertheless, after reviewing the context, the Court is left with the impression that
the transcript should be corrected to “often.” Therefore, the Court will direct the Court
Reporter to amend the transcripts to 1) correct the page number of the Court’s Reporter’s
Certification on the index of Doc. 144 and 2) to change the word “open” to “often” on page

2 For example, the transcript reflects that Ms. Delima testified that she arrived at the store
at 6 p.m. She now wishes the transcript to reflect that she arrived between 5 and 5:30.
(Doc. 151, p. 1). But, as that is not what her testimony was during the trial, it is
inappropriate to change the transcript.
3 Technically, Federal Rule of Appellate Procedure 10(e)(2) only envisions corrections of
“material” errors or omissions. The Court will give Ms. Delima the benefit of the doubt
here, even though the Court is extremely skeptical as to how or why these matters are
material.
2

Case 5:17-cv-05244-TLB Document 152

Filed 03/27/19 Page 3 of 3 PagelD #: 1518

4 of Doc. 146. Her requests for “clarifications” are in all other respects denied. Her request
for the audio back-up file is also denied. See Guide to Judiciary Policy § 510.40.10(c).
Finally, the Court cautions Ms. Delima about lodging such accusations of
malpractice and obstruction of justice against the Court or any of its personnel in the
future, especially when those accusations are as unfounded as those lodged here. All of
the officers of this Court take their duty seriously to ensure that each litigant has a full and
fair opportunity to present its case. It is clear that Ms. Delima is unhappy with the jury’s
verdict, but this disappointment provides no excuse to baselessly accuse court personnel
of deliberately altering official records in order to obstruct plaintiffs "quest for justice.”
(Doc. 148, p. 2).
IT IS THEREFORE ORDERED that Ms. Delima’s Motion for Order to Correct
Testimony (Doc. 148), Motion for Correction of Transcript of Zenith Thompson (Doc. 149),
and Motion for Correction of Transcript of Krystal Delima (Doc. 151) are GRANTED IN
PART AND DENIED IN PART as described above. Ms. Delima’s Motion for Correction
of Transcript of Christopher Milam (Doc. 150) is DENIED

47s

IT IS SO ORDERED on this ■/l-L-'day of March,£01
Tf-

2?" ?

&

3

L. BROOJ
UNITED STATI
ISTRICT JUDGE

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 1 of 13 PagelD #: 1646

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
PLAINTIFF

KRYSTAL MEGAN DELIMA
v.

CASE NO. 5:17-CV-5244
DEFENDANT

WAL-MART STORES ARKANSAS, LLC
MEMORANDUM OPINION AND ORDER

Currently before the Court is Plaintiff Krystal Megan Delima’s Motion for a New
Trial (Doc. 141). The Court has also received a Response in Opposition (Doc. 155) from
Defendant Wal-Mart Stores Arkansas, LLC (“Walmarf). For the reasons explained below,
Ms. Delima's Motion is DENIED.
I. BACKGROUND
Ms. Delima filed her complaint against Walmart on November 27,2017. At bottom,
her lawsuit claims that she was injured as a result of Walmart’s failure to properly organize
and conduct a holiday sale at its Siloam Springs Walmart store on November 27, 2014.
Her original Complaint (Doc. 1) sought compensatory and punitive damages totaling over
two million dollars. After denying Walmart’s motion for summary judgment, the case
proceeded to a three-day jury trial. On February 22,2019, the jury returned with a verdict
in favor of Walmart. (Doc. 138). A few weeks later, Ms. Delima filed the present motion.
II. LEGAL STANDARD
Under Rule 59 of the Federal Rules of Civil Procedure, a district court may grant a
new trial “after a jury trial, for any reason for which a new trial has heretofore been granted
in an action at law in federal court.” A motion for a new trial may be granted if “the verdict
is against the weight of the evidence,... the damages are excessive, or.. . for other
1

-S3

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 2 of 13 PagelD #: 1647

reasons, the trial was not fair to the party moving.” See Children’s Broad. Corp. v. Walt
Disney Co., 245 F.3d 1008, 1017 (8th Cir. 2001) (quoting Montgomery Ward & Co. v.
Duncan, 311 U.S. 243,251 (1940)). A motion for a new trial may also “raise questions of
law arising out of alleged substantial errors in admission or rejection of evidence or
instructions to the jury.” See id. The decision whether to grant a new trial is committed to
this Court’s discretion. See id.
III. DISCUSSION
Ms. Delima recites numerous grounds upon which she bases her request for a new

trial. The Court considers each reason in turn.
1. Ms. Delima’s Laptop
Ms. Delima first claims that she was unable to effectively participate in the Court’s
final jury instruction conference because she could not access the internet on the last day
of trial due to her battery in her laptop dying. It seems from the briefing that the laptop
and/or its charger was left in the courtroom on the preceding day. Although not explained
with much clarity, if Ms. Delima’s argument is premised on the notion that she wasn’t able
to charge her device from the courtroom on the day of the final jury instruction conference,
it is without merit. Counsel are able to plug in their devices using the outlets that are
directly beneath each counsel table in the courtroom.
To the extent Ms. Delima is implying that she was unable to send the Court
comments on proposed final instructions because she left her charger in the courtroom
and therefore faced a laptop with a dead battery when she returned to her hotel for the
evening, the Court similarly finds this reason unpersuasive. First of all, her failure to bring
her charging equipment home with her was a problem entirely of her own making. It is not

2

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 3 of 13 PagelD #: 1648

the type of procedural Irregularity justifying a new trial. Moreover, the argument that the
dead battery prevented her from meaningfully participating in the jury instruction
conference is simply belied by the record. For one thing, the Court consulted with the
parties on jury instructions multiple times over multiple days, distributing at least two
separate draft versions of the instructions in hard copy form. Moreover, the record shows
that Ms. Deiima meaningfully participated during each conference. See, e.g., Docs. 134,
135 (compilation of email communications between the Court and counsel over proposed
jury instructions). Contrary to her assertions now, Ms. Deiima did participate in these
conferences by suggesting specific jury instructions that she desired to be incorporated
into the final set. Thus, any complications caused by her laptop were of her own making
and did not hinder her ability to fully participate in the jury instruction conferences.
2. Failure to Give Certain Requested Jury Instructions
Ms. Delima's suggestion that her laptop prevented her from assisting the Court in
finalizing jury instructions is also at odds with her second purported ground for a new trial:
that the Court refused to give certain jury instructions that she requested. According to
Ms. Deiima, the Court should have given instructions on the following: spoliation of
evidence, [adjverse inference, aggravation of pre-existing condition, loss of normal or
quality of life, past pain and suffering, future pain and suffering and mental anguish,
medical expenses, and punitive damages. As an initial matter, the Court did in fact instruct
the jury that it could award damages to Ms. Deiima for medical expenses as well as past
and future pain and suffering and mental anguish. See Doc. 136, p. 15 (the Court’s final
jury instruction on the measure of damages). The Court now considers the other
requested instructions.

3

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 4 of 13 PagelD #: 1649

Ms. Delima first contends that the Court should have given both a spoliation of
evidence instruction and an adverse inference instruction. Both of these requested
instructions center around a copy of the video surveillance footage that Walmart has from
the night in question. Ms. Delima argues, as she did in two separate motions to compel
(Docs. 24, 82), that Walmart did not produce video footage that actually depicted the
alleged incident. However, as this Court ruled both times in denying Ms. Delima’s
motions, see Docs. 32, 109, the fact that the video footage in question did not catch a
bird’s eye view1 of the alleged incident does not mean that Walmart has intentionally
withheld video surveillance. Walmart has consistently maintained, and the witnesses at
trial explained in extensive detail, why the video footage that was produced was the best
footage of the area where the incident occurred. Ms. Delima’s suggestions to the contrary
are simply not supported by the record. There is no evidence that the footage produced
by Walmart and submitted as a joint stipulated exhibit at trial was intentionally altered or
that other footage was withheld from production. Therefore, neither an adverse inference
or spoliation instruction was appropriate.
Ms. Delima next contends that the jury should have been instructed on two
additional elements of damages; aggravation of a pre-existing medical condition and
future medical expenses. After hearing oral argument from both parties during the final
jury instruction conference, the Court ruled that the evidence at trial did not support giving

1 Ms. Delima appears to be laboring under the impression that Walmart should have had
a camera directly above the incident. However, as the witnesses testified, Walmart’s
camera coverage of the “grocery action alley” where the sale took place is considerably
less extensive than in other parts of the store, as customers tend to steal electronics and
personal items, not vegetables.
4

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 5 of 13 PagelD #: 1650

either of these instructions. As to her claim for aggravation of a pre-existing condition, Ms.
Delima contends that her anxiety was worsened as a result of the alleged incident. In
support, she called Dr. Clemens to the stand to explain her medical history. However, as
Walmart rightly notes, Dr. Clemens expressly declined to testify that Ms. Delima’s anxiety
was aggravated by the incident. Ms. Delima offered no other proof sufficient to justify
instructing the jury on this element. As to future medical expenses, the Court also
ultimately removed it from the measure of damages instruction it gave the jury. The
reason was simply because Ms. Delima failed to introduce evidence or testimony
sufficient to enable a jury to conclude that she has a continuing need for future medical
expenses related to the incident. Relatedly, there was no evidence from which a jury could
reasonably determine the amount of such future expenses. Therefore, the Court
continues to conclude that these instructions were properly denied.2
Finally, Ms. Delima argues that the jury should have been instructed on punitive
damages. In her motion for a new trial, Ms. Delima contends that “Plaintiff has clear
evidence through preponderance of the evidence” of Walmart’s negligence. (Doc. 142, p.
11). However, the standard is not preponderance of the evidence. Under Arkansas law,
as reflected in AMI 2218, a plaintiff may not recover punitive damages unless, by clear
and convincing evidence, she proves that the defendant either: 1) knew or should have
known that its conduct would lead to injury and continued with malice or in reckless

2 Of course, some of this discussion as to what damage elements should have been
submitted to the jury strikes the Court as more of an academic exercise given that the
jury didn’t even get to the question of damages because it found that Ms. Delima had not
proven by a preponderance of the evidence that Walmart was liable. See, e.g., Green v.
Am. Airlines, Inc., 804 F.2d 453,456 (8th Cir. 1986) (“Because the jury returned a verdict
for [the Defendant], the damage issue was not reached, and any error in instructions or
evidence relating to damages was harmless.").
5

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 6 of 13 PagelD #: 1651

disregard of the consequences, or 2) that the defendant intentionally pursued a course of
conduct for the purpose of causing injury. See Ark. Code Ann. § 16-55-206. There simply
was no evidence, much less clear and convincing evidence, that either of these two
conditions was met. Therefore, a punitive damages instruction was inappropriate.
3. Use of Separate Interrogatories for Each Element of Damages
Relatedly, Ms. Delima contends that the Court should have used separate
interrogatories for each element of damages. The Court disagrees. Its Final Instruction
No. 14 followed the AMI, giving a combined instruction as to all of the submitted elements
of damages and then breaking down and explaining each of those elements in a separate
instruction. There was no reason to require the jury to complete separate interrogatories
on each element. And, again, because the jury never reached the question of damages
at all, this is certainly not a factor which would justify a new trial.
4. Improper Testimony of Her Medical Provider
Ms. Delima next argues that her own medical provider, Dr. Clemens, gave
improper testimony regarding myalgia and fibromyalgia during cross examination by
Walmart. But, Ms. Delima failed to object at any point to any of Dr. Clemens testimony
during this cross-examination. And, Ms. Delima never attempted to re-direct to refocus
the jury on what she believes was most important about these two medical conditions.
Moreover, Dr. Clemens’ records were a part of the group of exhibits that were admitted
as stipulated exhibits at the beginning of trial. Therefore, this reason does not support her
request for a new trial.

6

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 7 of 13 PagelD #: 1652

5. Court’s Reference to the Incorrect Defendant
Ms. Delima next contends that the Court incorrectly referred to the Defendant as
“Walmart Corporation” at the beginning of the trial.3 Apparently, Ms. Delima believes that
the Court’s use of “Walmart Corporation” somehow prejudiced her case. But, Ms. Delima
never explains why she believes this to be so, and the Court is simply at a loss to see
how this misstatement in any way prejudiced her case or tainted the jury.
6. Ms. Delima’s Exhibits
Ms. Delima’s sixth reason for a new trial is because the jury did not see her Blue
Cross Blue Shield summary of her medical charges or an Occupational Safety and Health
Administration fact sheet with guidelines for retailers conducting special sales.
Ms. Delima is correct that these exhibits were not received into evidence at trial.
But, the failure to do so is entirely a creature of her own making. The Court at numerous
times during the trial explained that a party may not simply have documents admitted into
evidence at will. Rather, the party must lay a foundation for their introduction and then
move for their admission. Ms. Delima failed to do both things for each item.
Moreover, it is simply untrue that only Walmart’s exhibits were introduced.4 The
parties each submitted proposed exhibits in accordance with the Court’s scheduling
order. After review, Walmart advised Ms. Delima that some of her exhibits were missing

3 Although any misstatement of Defendant’s name by the Court was unintentional, it is
likely due in part to the fact that Ms. Deiima's initial Complaint named “Walmart
Corporation” as the defendant. At the Court’s case management hearing, Defendant
explained that the correct entity to be sued was Wal-mart Stores, Arkansas, LLC.
4 For instance, one of the exhibits that received the most attention at trial, the video
footage from the incident, was a plaintiffs exhibit. Nevertheless, it was included in the
group of joint exhibits introduced at the beginning of trial.
7

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 8 of 13 PagelD #: 1653

pages and the numbering of the exhibits was quite unusual. See Doc. 133-1, pp. 9,12.
Nevertheless, it agreed to stipulate to the admission of many of these exhibits en masse
at the beginning of trial. Thus, where the parties both included the same exhibit on their
exhibit list and to avoid any confusion and ensure that the complete versions of the
exhibits were submitted, the Court combined Walmart’s complete version of those
agreed-to exhibits into a Joint Exhibit packet. Id. at p. 12. The Joint Exhibit packet had an
index that cross-referenced both parties’ original exhibit numbers to ensure that it was
clear that both parties had originally intended for these exhibits to be admitted. The Court
then sent an email to the parties explaining this process and providing an opportunity for
counsel to review the joint exhibits and ensure that there were no objections. The Court
never received any objections from Ms. Delima, and the parties jointly moved these
agreed-to exhibits into evidence at the beginning of trial.
For all of these reasons, Ms. Delima is not entitled to a new trial because of her
failure to get any additional exhibits into evidence.
7. Misconduct of Defense Counsel5
Ms. Delima next accuses Defense counsel of misconduct. Specifically, she claims
that Walmarf s attorneys concealed from her specific facts surrounding two maps of the
layout of the Walmart store that were produced to her in response to various Requests
for Admission (“RFA”) and at the Court’s direction following a discovery dispute
conference. In short, Ms. Delima served a lengthy list of RFAs on Walmart during

5 Ms. Delima has already been cautioned once by the Court to refrain from accusing other
parties of misconduct without sufficient justification. (Doc. 152, p. 3). As explained below,
the Court again finds little support for Ms. Delima’s accusations and would reiterate its
admonishment to her here.
8

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 9 of 13 PagelD #: 1654

discovery in this matter. Many of those RFAs attempted to nail down where in the Walmart
store the sale took place that night. Because of the number and nature of these RFAs,
Walmart filed numerous objections. To obviate the need for lengthy responses and to
clear the matter up, the Court requested that Walmart provide Ms. Delima a copy of the
store layout that night. Ms. Delima then took one of the two maps Walmart provided and
converted it into two blown-up exhibits, labeled Joint Exhibits 5A and 5B. She then sought
to examine witnesses by having them mark on the exhibits where the sale of the Samsung
Galaxy tablet occurred in the store.6 When store manager Christopher Milam took the
stand, Ms. Delima asked him about the legend that appeared on the blown-up exhibits.
That legend did not list the Samsung Galaxy tablet. Mr. Milam informed Ms. Delima that
the reason for this was because the legend on that map corresponded to the 6PM sale,
and not the 8PM sale, which featured the Samsung Galaxy tablets.
From this set of events, Ms. Delima contends that Walmart and its attorneys
knowingly provided incorrect and/or misleading exhibits to her during discovery. The
Court disagrees. Walmart was directed by the Court to provide these maps of the layout
of the store. The fact that the Samsung Galaxy tablet did not appear on one of these
maps does not indicate that Walmart intentionally misled her. It was simply complying
with the Court’s order to turn over any maps in its possession that would depict the layout
of the store on the night in question. Moreover, the location of the sale has little to do with
the ultimate issue in this case—whether or not Walmart negligently conducted the sale.

6 Her intent in doing so appears to the Court to be related to her contention that the
surveillance video footage did not capture the area where the sale took place. However,
as noted above, despite asking numerous questions to numerous witnesses on this issue,
Ms. Delima failed to establish testimony that would undermine the accuracy of the video
footage provided to her in discovery.
9

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 10 of 13 PagelD #: 1655

Finally, to the extent that Ms. Delima believed that whether the sale took place in one part
of grocery action alley or another part was so fundamental to her case, Walmart is correct
that she spent a great deal of time—probably the majority of her case—examining and
cross-examining witnesses about the location of the sale. Therefore, the Court finds that
the jury heard more than sufficient evidence on this point and finds nothing in Ms. Delima’s
argument that would justify a new trial.
8. Weight of the Evidence
Ms. Delima next contends that a new trial is warranted because the jury’s verdict
went against the weight of the evidence. Ms. Delima makes no argument in support of
this assertion, and the Court finds little in the record to support it. The fact is that the jury
heard hours of testimony regarding the incident in question, the steps that Walmart took
to prepare for the sale, and Ms. Delima’s alleged injuries. After hearing all of this evidence,
the jury simply disagreed with Ms. Delima’s characterization of the facts. The jury could
easily have—and apparently did—credit the testimony of Heather Reddell, Christopher
Milam, and Officer Timothy Filbeck that Walmart took extensive precautions when
organizing and conducting the sale. Thus, the jury had sufficient evidence from which to
conclude that Walmart was not negligent in how it conducted the sale and that it did not
breach any duty it might have owed to Ms. Delima. While Ms. Delima may believe that
there is sufficient evidence in the record on which a jury could have found Walmart liable,
the law is clear that a new trial should not be granted where “reasonable persons can
differ in evaluating credible evidence.” Jacobs Mfg. Co. v. Sam Brown Co., 19 F.3d 1259,
1267 (8th Cir. 1994). Here, the jury simply did its job “to choose between plausible
versions of the evidence." Id.

10

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 11 of 13 PagelD #: 1656

9. Absence of Melanie Houchin
Ms. Delima’s final reason for requesting a new trial is because one of the witnesses
she desired to call, Melanie Houchin, did not appear. Ms. Houchin was an assistant
manager at the Walmart store at the time of the incident, and she was the Walmart
employee who signed her name to the written statement that Ms. Delima completed on
the night of the sale and whose name appears on Walmart’s internal report of the
incident.7 Ms. Delima complains that Walmart failed to call Ms. Houchin during the trial,
referring to her as one of Walmart’s “key” witnesses.
As an initial matter, Walmart had no duty to call Ms. Houchin in its case. As the
jury was correctly instructed, the burden of proof in this case was at all times on Ms.
Delima. Walmart was not required to call any witnesses in its defense or to call witnesses
that Ms. Delima would have liked to question. As Walmart rightly notes, the correct way
to ensure the attendance of key witnesses you desire to examine at trial is to properly
serve them with a subpoena. However, as the Court found during its side bar conference
once Ms. Houchin failed to appear, it seems that Ms. Delima failed to properly serve Ms.
Houchin at the Walmart store in Siloam Springs where the incident occurred. The problem
was that Ms. Houchin had not worked at that Walmart for some time.8 Therefore, the

7 These two documents were included in the exhibits received as joint exhibits by
stipulation of the parties at the beginning of the trial.
8

In fact, Christopher Milam testified that it had been years since she left that particular
Walmart store, and that he had learned recently that, after transferring to a Walmart in
Missouri, she had not worked for Walmart at all since around 2016. See Doc. 143, p. 35.
11

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 12 of 13 PagelD #: 1657

Court found that she had not perfected service of the subpoena under Rule 45, which
generally requires “delivering a copy to the named person.” F.R.C.P. 45(b)(1). g
However, the Court agrees with Walmart that even if Ms. Houchin had been
properly served with a subpoena in this case, Ms. Delima has not demonstrated how her
absence warrants a new trial. Ms. Delima intended to ask Ms. Houchin questions about
Walmart’s preservation of the video footage from the night in question, about the location
of the incident, and about her statement in the incident report that no other customers
witnessed the alleged incident.
However, this testimony would likely have been objectionable as cumulative. For
instance, the jury heard extensive testimony concerning the preservation of the video
footage, including from the Walmart employee, Heather Reddell, whose job it was to
ensure that Walmart complied with its own policies on evidence preservation. Ms. Delima
had a full and fair chance to cross-examine Ms. Reddell and the other Walmart witnesses
with knowledge of the video, and Ms. Delima offers no explanation as to how or why Ms.
Houchin’s purported additional testimony on these same issues was necessary given the
testimony that had already been elicited. Similarly, as explained in more detail above, the
jury heard numerous hours of testimony from witnesses concerning the precise location

9 The Court would note that Walmart’s pre-trial disclosure sheet listed Melanie Houchin
as a witness it expected to call. See Doc. 79, p. 6. It also explained that she “may be
contacted through Walmart’s counsel of record in this matter.” Id. However, the Court
does not interpret this to be a statement that Walmart would make its former employee
available for trial without a subpoena, or that it would accept service of a subpoena on
her behalf. Rather, it merely advised that Ms. Houchin’s contact information could be
obtained through Walmart’s counsel. It appears that Ms. Delima never attempted to
acquire this information, from Walmart or any other source, in order to properly serve Ms.
Houchin, given that she ended up mailing the subpoena via FedEx to a store where Ms.
Houchin had not worked in some time.

12

Case 5:17-cv-05244-TLB Document 161

Filed 04/10/19 Page 13 of 13 PagelD #: 1658

where the incident occurred. There again is no indication why additional testimony on that
topic would have been necessary or non-cumulative.
Finally, Ms. Delima argues that Ms. Houchin’s statement on the incident report that
no customers witnessed the incident was false because her daughter did in fact witness
the incident. The Court cannot fathom why this would justify a new trial. For one thing, the
witness in question, her daughter Zenith Thompson, testified at trial regarding what she
saw and heard. The fact that Ms. Delima was deprived of an opportunity to question Ms.
Houchin about one alleged misstatement simply has no bearing on the jury’s ultimate
determination that Walmart was not negligent in how it conducted the sale.
IV. CONCLUSION
None of the reasons recited by Ms. Delima, alone or in tandem, justify a new trial.
IT IS THEREFORE ORDERED that Ms. Delima’s Motion for a New Trial (Doc. 141)
is DENIED.
IT IS SO ORDERED on this

A
w.

day of April, |0|9.

KS
S DISTRICT JUDGE

13

Additional material
from this filing is
available in the
Clerk's Office.

